OFFICE OF THE ATTORNEY GENERAL
STATE OF ILLINOIS

KWAME RAOUL
ATTORNEY GENERAL

January 14, 2021
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Elim Romanian Pentecostal Church, et al. v. Pritzker, No. 20-569

Dear Mr. Harris:
On November 30, 2020, this Court directed Respondent Governor JB Pritzker
to respond to the petition for a writ of certiorari in the above-captioned case.
Petitioners challenge a restriction on the size of indoor, in-person religious
gatherings that respondent adopted in response to the Covid-19 pandemic and that
has not been in effect since May 29, 2020.
The United States Court of Appeals for the Seventh Circuit affirmed the
denial of petitioners’ request to preliminarily enjoin the enforcement of the expired
restriction on June 16, 2020. Elim Romanian Pentecostal Church v. Pritzker, 962
F.3d 341 (7th Cir. 2020). More than four months later (and nearly three months
after the Seventh Circuit denied petitioners’ petition for rehearing en banc), on
October 22, 2020, petitioners filed a petition for a writ of certiorari of that decision.
Pursuant to Supreme Court Rule 30.4, respondent respectfully requests a 30day of extension of time, from January 29 to March 1, 2021, to file his response.*
This is respondent’s second and final request for an extension of time. The Court
granted respondent’s first request, for a 30-day extension of time from December 30,
2020, to January 29, 2021, on December 16, 2020. Counsel for petitioners oppose
this request.
The extension requested by respondent is necessary due to current and recent
work responsibilities held by Assistant Attorney General Priyanka Gupta, who is
Thirty days from January 29, 2021, is Sunday, February 29, 2021, so the brief
would be due the next day on Monday, March 1, 2021. See Sup. Ct. R. 30.1.
*

500 South Second Street, Springfield, Illinois 62701 (217) 782-1090 TTY: (877) 844-5461 Fax: (217) 782-7046
100 West Randolph Street, Chicago, Illinois 60601 (312) 814-3000 TTY: (800) 964-3013 Fax: (312) 814-3806
601 South University Ave., Carbondale, Illinois 62901 (618) 529-6400 TTY: (877) 675-9339 Fax: (618) 529-6416

drafting respondent’s brief in opposition under my supervision. Specifically, in
January 2021, Ms. Gupta filed a motion to stay and a docketing statement in
Indiana Rail Road v. Illinois Commerce Commission, Nos. 20-3129, 21-1024
(consol.) (7th Cir.). On January 22, 2021, she will present oral argument in Holmes
v. Godinez, Nos. 20-2236, 20-2709 (consol.) (7th Cir.). And on January 25, 2021, she
will file a response brief in Khungar v. Illinois Department of Financial and
Professional Regulation, No. 1-20-0077 (Ill. App. Ct.), which is due on a final
extension of time.
Moreover, my work responsibilities also merit an extension. As the Solicitor
General of Illinois, I devote substantial time to performing supervisory and
administrative duties, including editing briefs in numerous appeals and helping
attorneys prepare for oral argument. That includes supervising and editing the
brief in opposition in Taylor v. Illinois, No. 20-5344 (U.S.), which was filed on
January 10, 2021, and for which I am counsel of record.
This request for an extension of time is not made for purposes of delay, but
solely to ensure that respondent’s interests are adequately protected. Moreover,
because the restriction on the size of religious gatherings at issue in this matter
expired on May 29, 2020, and has not been renewed, nor has respondent adopted
any other analogous restriction, granting this request will not prejudice petitioners.
Thank you in advance for your attention to this matter.
Sincerely,
/s/ Jane Elinor Notz
Jane Elinor Notz
Solicitor General
100 West Randolph Street
12th Floor
Chicago, Illinois 60601
(312) 814-5376
jnotz@atg.state.il.us
cc: Mathew D. Staver, Counsel for Petitioner

500 South Second Street, Springfield, Illinois 62701 (217) 782-1090 TTY: (877) 844-5461 Fax: (217) 782-7046
100 West Randolph Street, Chicago, Illinois 60601 (312) 814-3000 TTY: (800) 964-3013 Fax: (312) 814-3806
601 South University Ave., Carbondale, Illinois 62901 (618) 529-6400 TTY: (877) 675-9339 Fax: (618) 529-6416

